                                                                     Memorandum
Regional Inspector General
        Pretoria




         DATE:               May 4, 2000

         TO:                 Regional Director, USAID/REDSO/ESA, Mr. Donald R. Mackenzie

         FROM:               RIG/Pretoria, Joseph Farinella

         SUBJECT:            Audit of USAID/REDSO/ESA's Implementation of the Federal
                             Managers' Financial Integrity Act, Report No. 4-623-00-006-P

         This memorandum is our report on the subject audit. The report contains two
         recommendations. We have considered your comments on the draft report and have
         included them in their entirety in Appendix II.

         I appreciate the cooperation and courtesies extended to my staff during the audit.


         Background

         The Federal Managers' Financial Integrity Act of 1982 (FMFIA) establishes requirements
         for management accountability and controls for Federal agencies. This law encompasses
         program, operational, and administrative areas as well as accounting and financial
         management. Under the authority of the FMFIA, the Office of Management and Budget
         (OMB) issued Circular No. A-123, Management Accountability and Control, to provide
         detailed guidance for assigning Federal managers the responsibility for designing
         management structures to help ensure accountability and include appropriate cost-effective
         controls.

         OMB Circular No. A-123, states that management controls are the organization policies and
         procedures used to reasonably ensure that: (1) programs achieve their intended results; (2)
         resources are used consistent with agency mission; (3) programs and resources are protected
         from waste, fraud, and mismanagement; (4) laws and regulations are followed; and (5)
         reliable and timely information is obtained, maintained, reported and used for decision
         making. The Circular provides guidance to Federal managers on improving the
         accountability and effectiveness of Federal programs and operations by establishing,
         assessing, correcting, and reporting on management controls.
In addition, the FMFIA required the U. S. General Accounting Office (GAO) to issue
standards for internal control in the government. Control activities are the policies,
procedures, techniques, and mechanisms that enforce management directives. Certain
categories of control activities are common to all agencies and include, among other things,
appropriate documentation, accurate and timely recording of transactions and events, and
the proper execution of transaction and events.

Within USAID, the Agency issued Automated Directives System (ADS) Chapter 596,
Management Accountability and Control, which provides USAID's policy and
procedures for establishing, assessing, correcting, and reporting on management controls
under FMFIA and OMB Circular No. A-123. Additional guidance for assessing the
adequacy of management controls and annual instructions for reporting the status of
management controls is periodically provided by USAID's Bureau for Management,
Office of Management, Planning and Innovation (M/MPI).

Audit Objectives

The Office of the Regional Inspector General, Pretoria (RIG/Pretoria), audited
USAID/REDSO/ESA to answer the following audit objectives:

•   Has USAID/REDSO/ESA established management controls and periodically
    assessed these controls to identify deficiencies in accordance with the Federal
    Managers' Financial Integrity Act and related regulations and guidance?

•   Has USAID/REDSO/ESA reported material weaknesses in accordance with the
    Federal Managers' Financial Integrity Act and related regulations and guidance?

•   Has USAID/REDSO/ESA taken timely and effective action to correct identified
    management control deficiencies in accordance with the Federal Managers'
    Financial Integrity Act and related regulations and guidance?

Appendix I includes a discussion of the scope and methodology for this audit

Audit Findings

Has USAID/REDSO/ESA established management controls and periodically assessed
these controls to identify deficiencies in accordance with the Federal Managers'
Financial Integrity Act and related regulations and guidance?


USAID/REDSO/ESA has established management controls and periodically assessed these
controls to identify deficiencies in accordance with the FMFIA and related regulations and
guidance. However, we believe the Mission could further strengthen its management
controls, and its review of those controls, by performing a formal and systematic risk
assessment of its operations and programs. These areas are discussed below.


                                             2
Management Controls
Established and Assessed

FMFIA and OMB Circular No. A-123 provide guidance for use by Federal Agencies and
managers to, among other things, establish management controls and to periodically assess
the adequacy of those controls. Further, ADS Chapter 596, "Management Accountability
and Control" instructs Missions and cognizant managers to: (1) appoint a Management
Control Official (MCO) to oversee and coordinate management accountability and control
issues within the Mission; (2) ensure that appropriate and cost-effective management
controls are established; (3) continuously perform management control assessments in
accordance with instructions issued by USAID's Bureau for Management's Office of
Management Planning and Innovation (M/MPI); and (4) establish a Management Control
Review Committee (MCRC) to assess and monitor deficiencies in management controls.

Moreover, M/MPI provides annual guidance to Missions for conducting FMFIA reviews.
In conducting reviews, Missions are instructed to use existing sources of information to
supplement management's judgment in assessing the adequacy of management controls,
including: 1) management knowledge gained from daily operation of Agency programs and
systems; 2) management reviews; 3) Office of Inspector General and General Accounting
Office reports; and 4) program evaluations.

Missions are also instructed to review USAID's ADS in determining Mission compliance
with policies and essential procedures. M/MPI provides a Management Control Checklist to
assist in conducting the reviews. The FY 1998 Checklist contained 163 control techniques
extracted from the ADS.

In implementing the ADS, USAID/REDSO/ESA appointed the USAID/REDSO/ESA
Director as the MCO to oversee and coordinate management accountability and control
issues within the Mission. The Mission also established a MCRC comprised of office
managers and headed by the Deputy Mission Director to provide oversight of its
management control process.

USAID/REDSO/ESA took an organized approach in completing the FY 1998 FMFIA
assessment. The Controller’s Office coordinated the review among the office managers or
Strategic Objective Team Leaders (SO team leaders) and cognizant financial analysts,
prepared a timetable for conducting the review and specified deadlines for the submission of
the review results. A financial analyst within the Controller’s Office formally transmitted
the M/MPI checklist containing 163 control techniques along with instructions to cognizant
offices within the Mission.

Upon receipt of the checklist, each office or SO team leader and cognizant staff determined
whether the controls in their areas were satisfactory and noted any deficiencies. The teams
then summarized their evaluation on a control technique worksheet and submitted it to a
Controller Office’s financial analyst assigned as the coordinator. After receiving this
evaluation, the financial analyst reviewed and validated both the ratings of controls and the



                                             3
conclusions reached. These conclusions were subsequently reviewed by the Controller and
Mission's MCRC, who determined what actions should be taken on deficiencies and
whether they should be considered material weaknesses. As required, USAID/REDSO/ESA
reported its material weaknesses. The following table highlights the areas addressed by these
control techniques.


                                CONTROL TECHNIQUES

            CATEGORY                                       NUMBER

            Program Assistance                             37
            Organization Management                         7
            Administrative Management                      40
            Financial Management                           44
            Acquisition and Assistance                     27
            Audit Management Resolution Program             5
            Other                                           3
                             TOTAL                         163


Risk Assessments Would Further
Strengthen the Mission’s FMFIA Process

USAID/REDSO/ESA has established the management controls outlined in USAID's ADS
and, in some cases, has supplemented those controls. However, we believe formal and
systematic risk assessment of its operations and programs would strengthen the process.

       Recommendation No. 1: We recommend that USAID/REDSO/ESA
       determine whether a formal and systematic risk assessment would
       strengthen the efficiency of its FMFIA review.

GAO Standards for Internal Control in the Federal Government state that internal controls
should provide for an assessment of the risks USAID faces from both external and internal
sources.

Most of the Mission’s assessments of management controls were conducted as a part of its
Audits and Audits Resolution Program. Consequently, the Mission’s MCRC agenda
focused on FMFIA issues, audit recommendation follow up, audits in progress, and planned
audit management and resolution. While some of the USAID/REDSO/ESA SO teams
conducted an ongoing monitoring program other SO teams within the Mission routinely
performed management reviews by conducting site visits and field trips whose findings or
results were documented. For example in FY 98, few of USAID/REDSO/ESA’s policies
and procedures were included in its Mission orders as it has just instituted a Mission Order
system independent of USAID/Kenya.



                                             4
The benefits of risk assessment are two-fold. First, by conducting risk assessments, Mission
managers can ensure that they have established management controls that are appropriate to
their unique situation. Second, by identifying the level of risk in operations and programs,
senior Mission management can focus more resources on high risk areas and less resources
on low risk areas, thereby increasing its efficiency and effectiveness.

During our audit, we found that the Mission did not perform formal risk assessments in FY
1998. Mission officials told us they were not aware of the benefits of conducting risk
assessments. Many never formally participated in or have been trained in conducting these
types of reviews. Although the Mission managers told us they informally discussed
vulnerable operations and processes, those discussions were not documented or recorded for
follow-up. Therefore, the Mission management may not be informed regarding its
susceptibility to high risks before a situation becomes a cause of major concern.

Has USAID/REDSO/ESA reported material weaknesses in accordance with the
Federal Managers' Financial Integrity Act and related regulations and guidance?

USAID/REDSO/ESA performed an evaluation of its system of internal accounting and
administrative controls in FY 1998 and identified two material weaknesses ---- (1)
Contract Grant Closeouts, and (2) the lack of Operating Expense funds. The Mission
reported those weaknesses in accordance with the Federal Managers' Financial Integrity
Act and related regulations and guidance in October 1998.

The Office of Management and Budget (OMB) Circular No. A-123 requires that a
management control deficiency should be reported if it is or should be of interest to the next
level of management. This allows the chain of command structure to determine the relative
importance of each deficiency. In this regard, USAID’s ADS Chapter 596 and M/MPI’s FY
1998 instructions required Missions to provide a FMFIA certification to the cognizant
Assistant Administrator with a copy to M/MPI, on the overall adequacy and effectiveness of
management controls. This certification should identify management control deficiencies
determined to be material weaknesses, including those that are not correctable within the
Mission’s authority and resources.

One of the two material weaknesses reported by USAID/REDSO/ESA was not correctable
within the Mission’s authority and resources. In the aftermath of the U. S. Embassy
bombing in Nairobi, increased security was necessary for residences and offices. This
security was not funded in the OE budget. The second material weakness, contract
closeouts, was reported and corrected in FY 1997. This weakness was resubmitted because
the individual hired to fulfill the position resigned mid-year.


Has USAID/REDSO/ESA taken timely and effective action to correct identified
management control deficiencies in accordance with the Federal Managers' Financial
Integrity Act and related regulations and guidance?




                                              5
OMB Circular No. A-123 and USAID’s ADS Chapter 596 require Agency managers to take
timely and effective action to correct deficiencies identified. USAID/REDSO/ESA took the
appropriate action in correcting deficiencies identified in its FY 1998 FMFIA review. The
Mission closed the two deficiencies noted in FY 1997’s FMFIA review. However, the
Mission’s MCRC files did not contain sufficient supporting documentation of the closure of
these two material weaknesses.

       Recommendation No. 2: We recommend that USAID/REDSO/ESA
       establish a procedure to formally document the Management Control
       and Review Committee’s and other meetings during the FMFIA review.

In its FY 1998 review, the Mission identified two deficiencies, including one deficiency
repeated from the 1997 review. In following up with Mission officials, we noted that the
Mission had taken some steps to correct the deficiencies. The Mission did not maintain
documentation, i.e., minutes of MCRC meetings, to show that the MCRC reviewed and
approved the corrective actions taken. Such documentation would show that the MCRC
reviewed the actions taken on the deficiencies and determined that the actions were
sufficient to correct the deficiencies.

The lack of documentation when corrective actions are completed makes it difficult to
determine if a corrective action was actually completed and whether the MCRC agreed to
the closure of the material weakness. With a formalized tracking system by which to
monitor the correction of an identified control deficiency, management would be better able
to review as well as report on progress toward closure.

Although USAID/REDSO/ESA conducted MCRC meetings to discuss outstanding
deficiencies, there were no minutes of the meetings. Therefore, we were unable to verify the
corrective actions taken and MCRC approval of completed actions.


Management Comments and Our Evaluation

Recommendation No. 1 states: “We recommend that USAID/REDSO/ESA determine
whether a formal and systematic risk assessment would strengthen the efficiency of its
FMFIA review.”

The Mission concurred with the recommendation and agreed that a more formalized
assessment of risk would strengthen the FMFIA process. The Mission noted that the
nature of such a formalized assessment and its implementation cannot be clearly specified
at this time and that it will seek guidance from AID/W on this matter.

In addition, the Mission also stated, in its comments, that most staff have no training in
conducting risk assessments or a clear understanding of what a “formal risk assessment”
might entail. Without guidance, training or assistance, the Mission is not in a position to
conduct a comprehensive risk assessment. The Mission stated that it will look to AID/W for
guidance on this matter.


                                             6
The Mission also stated that its managers indicated to the auditors that vulnerable operations
and process were discussed during the FMFIA review process which is an indication the
Mission is currently making efforts to consider risk factors in its review process.

Based on the foregoing, a management decision has been reached on Recommendation
No. 1. Please notify M/MPI when final action is complete.

Recommendation No. 2 states: “We recommend that USAID/REDSO/ESA establish a
procedure to formally document the Management Control and Review Committee’s and
other meetings during the FMFIA review.”

The Mission concurred and stated that formal minutes of MCRC and other meetings
associated with FMFIA review are now being maintained.

Based on the foregoing, a management decision has been reached on Recommendation No.
2. Please notify M/MPI when final action is complete.

The complete text of management comments is included in Appendix II.




                                              7
                                                                             APPENDIX I



                               SCOPE AND
                              METHODOLOGY



We audited USAID/REDSO/ESA’s implementation of the Federal Manager’s Financial
Integrity Act (FMFIA). The audit was performed in accordance with generally accepted
government auditing standards and was conducted from October 25 through November 19,
1999 at USAID/REDSO/ESA in Nairobi.

We reviewed the Mission's FY 1998 FMFIA assessment and deficiencies noted in its FY
1997 assessment. We did not design our audit to identify material weaknesses that were not
reported by the Mission; however, if any previously unreported weaknesses came to our
attention during the audit, we included these in our audit report.

The audit work included reviewing the Mission's system for establishing, assessing,
reporting and correcting management controls. To accomplish the audit objectives, we
reviewed the Federal Manager’s Financial Integrity Act, Office of Management and Budget
Circular No. A-123, General Accounting Office's (GAO) "Standards for Internal Control in
the Federal Government," and USAID's Automated Directives System (ADS) Chapter 596
on Management Accountability and Control. In addition, we reviewed USAID’s guidance
for assessing the adequacy of management controls and annual instructions for reporting on
the status of these controls, as well as other ADS Chapters relating to Agency policies and
essential procedures, and recent Office of Inspector General audit reports performed at
USAID/REDSO/ESA.

We developed and used a questionnaire to obtain information from the Mission's
Management Control Official, Management Control Review Committee members and
operating unit managers. To supplement this information, we also reviewed available
documentation from FY’s 1997 and 1998 FMFIA reviews, including management control
deficiencies identified and management action plans for correcting those deficiencies. We
reviewed the Mission's FMFIA Certifications to the AA/AFR on the overall adequacy and
effectiveness of management controls, the material weaknesses identified, and obtained
information on the status of the material weaknesses identified in the Fiscal Years 1997 and
1998 reviews.




                                             8
        APPENDIX II
    Management Comments




9
         APPENDIX II
     Management Comments




10
